No. 19-247

 

 

IN THE
Supreme Court of the Anited States
CITY OF BOISE,
Petitioner,
Vv.

ROBERT MARTIN, ef al.,
Respondents.
AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that all parties required to be served, have been served, on this
25 day of September, 2019, in accordance with U.S. Supreme Court Rule 29.3, three (3)
copies of the foregoing BRIEF OF AMICI CURIAE LOS ANGELES AREA
CHAMBER AND CENTRAL CITY ASSOCIATION IN SUPPORT OF
PETITIONER by placing said copies in FEDERAL EXPRESS, PRIORITY
OVERNIGHT, addressed as listed below.

Theane Evangelis Kapur Michael Evan Bern
Gibson, Dunn and Crutcher, LLP Latham & Watkins LLP
833 South Grand Avenue 555 11™ Street, NW
48" Floor Suite 1000

Los Angeles, CA 90071 Washington, DC 20004
(213) 229-7726 (202) 637-1021
tevangelis@gibsondunn.com michael.bern@lw.com

 

RAYMQXD CHARLES CLARK

BYBON S. ADAMS, LEGAL & COMMERCIAL PRINTERS
1615 L Street, NW, Suite 100

Washington, DC 20036

(202) 347-8203

District of Columbia: SS

Subscribed and Sworn to before me this 25" day of September, 2019.

 

. Vi +) QS
14 OSS Kal tend tat Hl

Tor cos NOTARY PUBLIC, DISTRICT OF COLUMBIA
as My Commission Expires June 14, 2020.

 

 
